No. 20-7557

In the Supreme Court of the United States

_________________________________________________
Wendy Alison Nora,
Petitioner
v.
Office of Lawyer Regulation,
Respondent
_________________________________________________
APPENDIX TO BRIEF OF AMICUS CURIAE
HOMEOWNERS LEGAL RIGHTS, INC.,
A FLORIDA NOT FOR PROFIT CORPORATION,
SUPPORTING PETITIONER
_______________________________________________
Rhonda Hernandez,
Counsel of Record for Amicus Curiae*
Hernandez Law Office
P.O. Box 16924
Galveston, Texas 77552
Telephone:(409) 939-4546
Email: Rhonda.Hdz@gmail.com
Attorney for Amicus Curiae
*Admitted to Practice before the United States
Supreme Court and the Supreme Court of the
State of Texas

APPENDIX A
April 2, 2021 Proposed
New Rule of Consumer
Financial Protection Bureau
RE: COVID-19 Forebearance

Appendix A

A-01
https://files.consumerfinance.gov/f/documents/cfpb_m
ortgage-servicing_nprm_2021-04.pdf
at pages 137-150
PART 1024—REAL ESTATE SETTLEMENT
PROCEDURES ACT (REGULATION X)
1.The authority citation for part 1024
continues to read as follows:
Authority: 12 U.S.C. 2603-2605, 2607, 2609,
2617, 5512, 5532, 5581. Subpart
C—Mortgage Servicing
2.Section 1024.31 is amended by adding a new
paragraph to read as follows:
§ 1024.31 Definitions.
*

*

*

*

*

COVID-19-related hardship means a financial
hardship due, directly or indirectly, to the COVID-19
emergency as defined in the Coronavirus Economic
Stabilization Act, section 4022(a)(1) (15 U.S.C.
9056(a)(1)).
*
*
*
*
*
3. Section 1024.39 is amended by revising paragraph
(a) and adding paragraph (e) to read as follows:

Appendix A

A-02
§ 1024.39 Early intervention requirements for
certain borrowers.
(a) Live Contact. Except as otherwise provided
in this section, a servicer shall establish or make
good faith efforts to establish live contact with a
delinquent borrower no later than the 36th day of a
borrower’s delinquency and again no later than 36
days after each payment due date so long as the
borrower remains delinquent. Promptly after
establishing live contact with a
137
borrower, the servicer shall inform the borrower
about the availability of loss mitigation options, if
appropriate, and take the actions described in
paragraph 39(e) of this section, if applicable.
*

*

*

*

*

(e) Temporary COVID-19 Related Live Contact.
Until August 31, 2022, in complying with the
requirements described in paragraph 39(a), promptly
after establishing live contact with a borrower, the
servicer shall take the following actions:
(1) Borrowers not in forbearance programs at
the time of live contact. If the borrower is not in a
forbearance program at the time the servicer
establishes live contact and the owner or assignee of
the borrower’s mortgage loan makes a forbearance
program available through the servicer to borrowers
experiencing a COVID-19-related hardship, the
servicer must ask the borrower whether the borrower

Appendix A

A-03
is experiencing a COVID-19-related hardship. If the
borrower indicates that the borrower is experiencing
a COVID-19-related hardship, the servicer shall list
and briefly describe to the borrower any such
forbearance programs made available and the actions
the borrower must take to be evaluated for such
forbearance programs.
(2) Borrowers in forbearance programs at the
time of live contact. If the borrower is in a
forbearance program made available to borrowers
experiencing a COVID-19-related hardship, during
the last live contact made pursuant to paragraph
39(a) of this section that occurs prior to the end of the
forbearance period, the servicer must inform the
borrower of the following information:
(i) The date the borrower’s current forbearance
program ends; and
(ii) A list and brief description of each of the
types of forbearance extension, repayment options,
and other loss mitigation options made available by
the owner or assignee of the
138
borrower’s mortgage loan to resolve the borrower’s
delinquency at the end of the forbearance program,
and the actions the borrower must take to be
evaluated for such loss mitigation options.
4. Section 1024.41 is amended by revising
paragraphs (c)(2)(i), (c)(2)(v)(A)(1), and (f)(1)(i)and

Appendix A

A-04
adding new paragraphs(c)(2)(vi)and (f)(3)to read as
follows:
§ 1024.41 Loss mitigation procedures.
*

*

*

*

(c)

*

*

*

*

(2) Incomplete loss mitigation application
evaluation—(i) In general. Except as set forth in
paragraphs (c)(2)(ii), (iii), (v), and (vi) of this section,
a servicer shall not evade the requirement to
evaluate a complete loss mitigation application for all
loss mitigation options available to the borrower by
offering a loss mitigation option based upon an
evaluation of any information provided by a borrower
in connection with an incomplete loss mitigation
application.
*

*

*

*

*

(v) *

*

* (A) * *

*

(1)The loss mitigation option permits the
borrower to delay paying covered amounts until the
mortgage loan is refinanced, the mortgaged property
is sold, the term of the mortgage loan ends, or, for a
mortgage loan insured by the Federal Housing
Administration, the mortgage insurance terminates.
For purposes of this paragraph (c)(2)(v)(A)(1),
“covered amounts” includes, without limitation, all

Appendix A

A-05
principal and interest payments forborne under a
payment forbearance program made available to
borrowersexperiencing a COVID-19-related
hardship, including a payment forbearance program
made pursuant to the Coronavirus Economic
Stabilization Act, section 4022 (15 U.S.C. 9056); it
also includes, without limitation, all other
139
principal and interest payments that are due and
unpaid by a borrower experiencing a COVID-19related hardship. For purposes of this paragraph
(c)(2)(v)(A)(1), “the term of the mortgage loan” means
the term of the mortgage loan according to the
obligation between the parties in effect when the
borrower is offered the loss mitigation option.
*

*

*

*

*

(vi) Certain COVID-19-related loan
modification options. (A) Notwithstanding paragraph
(c)(2)(i) of this section, a servicer may offer a
borrower a loan modification based upon evaluation
of an incomplete application, provided that all of the
following criteria are met:
(1) The loan modification extends the term of
the loan by no more than 480 months from the date
the loan modification is effective and does not cause
the borrower’s monthly required principal and
interest payment to increase.
(2) Any amounts that the borrower may delay
paying until the mortgage loan is refinanced, the

Appendix A

A-06
mortgaged property is sold, or the loan modification
matures, do not accrue interest; the servicer does not
charge any fee in connection with the loan
modification, and the servicer waives all existing late
charges, penalties, stop payment fees, or similar
charges promptly upon the borrower’s acceptance of
the loan modification.
(3) The loan modification is made available to
borrowers experiencing a COVID-19 related
hardship.
(4) Either the borrower’s acceptance of an offer
pursuant to paragraph (c)(2)(vi)(A) of this section
ends any preexisting delinquency on the mortgage
loan or the loan modification offered pursuant to
paragraph (c)(2)(vi)(A) of this section is designed to
end any preexisting delinquency on the mortgage
loan upon the borrower satisfying the servicer’s
requirements for completing a trial loan modification
plan and accepting a permanent loan modification.
140
(B) Once the borrower accepts an offer made
pursuant to paragraph (c)(2)(vi)(A) of this section,
the servicer is not required to comply with paragraph
(b)(1) or (2) of this section with regard to any loss
mitigation application the borrower submitted prior
to the servicer’s offer of the loan modification
described in paragraph (c)(2)(vi)(A) of this section.
However, if the borrower fails to perform under a
trial loan modification plan offered pursuant to

Appendix A

A-07
paragraph (c)(2)(vi)(A) of this section or requests
further assistance, the servicer must immediately
resume reasonable diligence efforts as required
under paragraph (b)(1) of this section with regard to
any loss mitigation application the borrower
submitted prior to the servicer’s offer of the trial loan
modification plan.
*

*

*

*

*

(f) *
*
* (1) * *
* (i) A borrower’s
mortgage loan obligation is more than 120 days
delinquent and paragraph (f)(3) does not apply;
*

*

*

*

*

(3) Special COVID-19 Emergency preforeclosure review requirements. A servicer shall
notrely on paragraph (f)(1)(i) to make the first notice
or filing required by applicable law for any judicial or
non-judicial foreclosure processuntil after December
31, 2021.
*

*

*

*

*

5. In Supplement I to Part 1024—Official
Interpretations:
a. Under Section 1024.39—Early intervention
requirements for certain borrowers, 39(a) Live
contact is revised.

Appendix A

A-08
b. Under Section 1024.41—Loss mitigation
procedures, 41(b)(1) Complete loss mitigation
application is revised.
141
Supplement I to Part 1024—Official
Interpretations
Subpart C—Mortgage Servicing
*

*

*

*

*

Section 1024.39—Early Intervention Requirements
for Certain Borrowers
39(a) Live contact.
1. Delinquency. Section 1024.39 requires a
servicer to establish or attempt to establish live
contact no late
i. Assume a mortgage loan obligation with a
monthly billing cycle and monthly payments of
$2,000 representing principal, interest, and escrow
due on the first of each month.
A. The borrower fails to make a payment of
$2,000 on, and makes no payment during the 36-day
period after, January 1. The servicer must establish
or make good faith efforts to establish live contact
not later than 36 days after January 1—i.e., on or
before February 6.

Appendix A

A-09
B. The borrower makes no payments during
the period January 1 through April 1, although
payments of $2,000 each on January 1, February 1,
and March 1 are due. Assuming it is not a leap year;
the borrower is 90 days delinquent as of April 1. The
servicer may time its attempts to establish live
contact such that a single attempt will meet the
requirements of § 1024.39(a) for two missed
payments. To illustrate, the servicer complies with §
1024.39(a) if the servicer makes a good faith effort to
establish live contact with the borrower, for example,
on February 5 and again on March 25. The February
5 attempt meets the requirements of § 1024.39(a) for
both the January 1 and February 1 missed
payments. The March 25 attempt meets the
requirements of § 1024.39(a) for the March 1 missed
payment.
142
ii. A borrower who is performing as agreed
under a loss mitigation option designed to bring the
borrower current on a previously missed payment is
not delinquent for purposes of § 1024.39.
iii. During the 60-day period beginning on the
effective date of transfer of the servicing of any
mortgage loan, a borrower is not delinquent for
purposes of § 1024.39 if the transferee servicer learns
that the borrower has made a timely payment that
has been misdirected to the transferor servicer and
the transferee servicer documents its files
accordingly. See § 1024.33(c)(1) and comment
33(c)(1)-2.

Appendix A

A-10

iv.A servicer need not establish live contact
with a borrower unless the borrower is delinquent
during the 36 days after a payment due date. If the
borrower satisfies a payment in full before the end of
the 36-day period, the servicer need not establish live
contact with the borrower. For example, if a borrower
misses a January 1 due date but makes that
payment on February 1, a servicer need not establish
or make good faith efforts to establish live contact by
February 6.
2. Establishing live contact. Live contact
provides servicers an opportunity to discuss the
circumstances of a borrower's delinquency. Live
contact with a borrower includes speaking on the
telephone or conducting an in-person meeting with
the borrower but not leaving a recorded phone
message. A servicer may rely on live contact
established at the borrower's initiative to satisfy the
live contact requirement in §1024.39(a). Servicers
may also combine contacts made pursuant to §
1024.39(a) with contacts made with borrowers for
other reasons, for instance, by telling borrowers on
collection calls that loss mitigation options may be
available.
3. Good faith efforts. Good faith efforts to
establish live contact consist of reasonable steps,
under the circumstances, to reach a borrower and
may include telephoning the borrower on
143

Appendix A

A-11
more than one occasion or sending written or
electronic communication encouraging the borrower
to establish live contact with the servicer. The length
of a borrower's delinquency, as well as a borrower's
failure to respond to a servicer’s repeated attempts at
communication pursuant to § 1024.39(a), are
relevant circumstances to consider. For example,
whereas “good faith efforts” to establish live contact
with regard to a borrower with two consecutive
missed payments might require a telephone call,
“good faith efforts” to establish live contact with
regard to an unresponsive borrower with six or more
consecutive missed payments might require no more
than including a sentence requesting that the
borrower contact the servicer with regard to the
delinquencies in the periodic statement or in an
electronic communication. Comment 39(a)6 discusses the relationship between live contact and
the loss mitigation procedures set forth in § 1024.41.
4. Promptly inform if appropriate.
i. Servicer’s determination. Except as provided
in § 1024.39(e), it is within a servicer’s reasonable
discretion to determinewhether informing a borrower
about the availability of loss mitigation options is
appropriate under the circumstances. The following
examples demonstrate when a servicer has made a
reasonable determination regarding the
appropriateness of providing information about loss
mitigation options.

Appendix A

A-12
A. A servicer provides information about the
availability of loss mitigation options to a borrower
who notifies a servicer during live contact of a
material adverse change in the borrower’s financial
circumstances that is likely to cause the borrower to
experience a long-term delinquency for which loss
mitigation options may be available.
144
B. A servicer does not provide information
about the availability of loss mitigation options to a
borrower who has missed a January 1 payment and
notified the servicer that full late payment will be
transmitted to the servicer by February 15.
ii. Promptly inform. If appropriate, a servicer
may inform borrowers about the availability of loss
mitigation options orally, in writing, or through
electronic communication, but the servicer must
provide such information promptly after the servicer
establishes live contact. Except as provided in
§1024.39(e), a servicer need not notify a borrower
about any particularloss mitigation options at this
time; if appropriate, a servicer need only inform
borrowers generally that loss mitigation options may
be available. If appropriate, a servicer may satisfy
the requirement in §1024.39(a) to inform a borrower
about loss mitigation options by providing the
written notice required by § 1024.39(b)(1), but the
servicer must provide such notice promptly after the
servicer establishes live contact.

Appendix A

A-13
5. Borrower’s representative. Section 1024.39
does not prohibit a servicer from satisfying its
requirements by establishing live contact with and, if
applicable, providing information about loss
mitigation options to a person authorized by the
borrower to communicate with the servicer on the
borrower’s behalf. A servicer may undertake
reasonable procedures to determine if a person that
claims to be an agent of a borrower has authority
from the borrower to act on the borrower’s behalf, for
example, by requiring a person that claims to be an
agent of the borrower to provide documentation from
the borrower stating that the purported agent is
acting on the borrower’s behalf.
6. Relationship between live contact and loss
mitigation procedures. If the servicer has established
and is maintaining ongoing contact with the
borrower under the loss mitigation procedures under
§ 1024.41, including during the borrower’s
completion of a loss mitigation
145
application or the servicer’s evaluation of the
borrower's complete loss mitigation application, or if
the servicer has sent the borrower a notice pursuant
to § 1024.41(c)(1)(ii) that the borrower is not eligible
for any loss mitigation options, the servicer complies
with §1024.39(a) and need not otherwise establish or
make good faith efforts to establish live contact. A
servicer must resume compliance with the
requirements of § 1024.39(a) for a borrower who
becomes delinquent again after curing a prior
delinquency.

Appendix A

A-14

*

*

*

*

*

Section 1024.41—Loss Mitigation Procedures
*

*

*

*

*

41(b)(1) Complete loss mitigation application.
1. In general. A servicer has flexibility to
establish its own application requirements and to
decide the type and amount of information it will
require from borrowers applying for loss mitigation
options. In the course of gathering documents and
information from a borrower to complete a loss
mitigation application, a servicer may stop collecting
documents and information for a particular loss
mitigation option after receiving information
confirming that, pursuant to any requirements
established by the owner or assignee of the
borrower’s mortgage loan, the borrower is ineligible
for that option. A servicer may not stop collecting
documents and information for any loss mitigation
option based solely upon the borrower’s stated
preference but may stop collecting documents and
information for any loss mitigation option based on
the borrower’s stated preference in conjunction with
other information, as prescribed by any requirements
established by the owner or assignee. A servicer must
continue to exercise reasonable diligence to obtain
documents and information from the borrower that
the servicer
146

Appendix A

A-15
requires to evaluate the borrower as to all other loss
mitigation options available to the borrower. For
example:
i. Assume a particular loss mitigation option is
only available for borrowers whose mortgage loans
were originated before a specific date. Once a
servicer receives documents or information
confirming that a mortgage loan was originated after
that date, the servicer may stop collecting documents
or information from the borrower that the servicer
would use to evaluate the borrower for that loss
mitigation option, but the servicer must continue its
efforts to obtain documents and information from the
borrower that the servicer requires to evaluate the
borrower for all other available loss mitigation
options.
ii. Assume applicable requirements
established by the owner or assignee of the mortgage
loan provide that a borrower is ineligible for home
retention loss mitigation options if the borrower
states a preference for a short sale and provides
evidence of another applicable hardship, such as
military Permanent Change of Station orders or an
employment transfer more than 50 miles away. If the
borrower indicates a preference for a short sale or,
more generally, not to retain the property, the
servicer may not stop collecting documents and
information from the borrower pertaining to
available home retention options solely because the
borrower has indicated such a preference, but the

Appendix A

A-16
servicer may stop collecting such documents
andinformation once the servicer receives
information confirming that the borrower has an
applicable hardship under requirements established
by the owner or assignee, such as military
Permanent Change of Station orders or employment
transfer.
2. When an inquiry or prequalification request
becomes an application. A servicer is encouraged to
provide borrowers with information about loss
mitigation programs. If in giving information to the
borrower, the borrower expresses an interest in
applying for a loss mitigation
147
option and provides information the servicer would
evaluate in connection with a loss mitigation
application, the borrower’s inquiry or
prequalification request has become a loss mitigation
application. A loss mitigation application is
considered expansively and includes any
“prequalification” for a loss mitigation option. For
example, if a borrower requests that a servicer
determine if the borrower is “prequalified” for a loss
mitigation program by evaluating the borrower
against preliminary criteria to determine eligibility
for a loss mitigation option, the request constitutes a
loss mitigation application.
3. Examples of inquiries that are not
applications. The following examples illustrate
situations in which only an inquiry has taken place

Appendix A

A-17
and no loss mitigation application has been
submitted:
i. A borrower calls to ask about loss mitigation
options and servicer personnel explain the loss
mitigation options available to the borrower and the
criteria for determining the borrower’s eligibility for
any such loss mitigation option. The borrower does
not, however, provide any information that a servicer
would consider for evaluating a loss mitigation
application.
ii. A borrower calls to ask about the process for
applying for a loss mitigation option but the borrower
does not provide any information that a servicer
would consider for evaluating a loss mitigation
application.
4. Although a servicer has flexibility to
establish its own requirements regarding the
documents and information necessary for a loss
mitigation application, the servicer must act with
reasonable diligence to collect information needed to
complete the application. A servicer must request
information necessary to make a loss mitigation
application complete promptly after receivingthe loss
mitigation application. Reasonable diligence for
purposes of §1024.41(b)(1) includes, without
limitation, the following actions:
148
i. A servicer requires additional information
from the applicant, such as an address or a telephone

Appendix A

A-18
number to verify employment; the servicer contacts
the applicant promptly to obtain such information
after receiving a loss mitigation application;
ii. Servicing for a mortgage loan is transferred
to a servicer and the borrower makes an incomplete
loss mitigation application to the transferee servicer
after the transfer; the transferee servicer reviews
documents provided by the transferor servicer to
determine if information required to make the loss
mitigation application complete is contained within
documents transferred by the transferor servicer to
the servicer; and
iii. A servicer offers a borrower a short-term
payment forbearance program or a short-term
repayment plan based on an evaluation of an
incomplete loss mitigation application and provides
the borrower the written notice pursuant to §
1024.41(c)(2)(iii). If the borrower remains in
compliance with the short-term payment forbearance
program or short-term repayment plan, and the
borrower does not request further assistance, the
servicer may suspend reasonable diligence efforts
until near the end of the payment forbearance
program or repayment plan. However, if the
borrower fails to comply with the program or plan or
requests further assistance, the servicer must
immediately resume reasonable diligence efforts.
Near the end of a short-term payment forbearance
program offered based on an evaluation of an
incomplete loss mitigation application pursuant to §

Appendix A

A-19
1024.41(c)(2)(iii), and prior to the end of the
forbearance period, if the borrower remains
delinquent, a servicer must contact the borrower to
determine if the borrower wishes to complete the loss
mitigation application and proceed with a full loss
mitigation evaluation.
iv. If the borrower is in a short term payment
forbearance program made available to borrowers
experiencing a COVID-19-related hardship, including
a payment forbearance program
149
made pursuant to the Coronavirus Economic
Stability Act, section 4022 (15 U.S.C. 9056), that was
offered to the borrower based on evaluation of an
incomplete application, a servicer must contact the
borrower no later than 30 days before the end of the
forbearance period to determine if the borrower
wishes to complete the loss mitigation application
and proceed with a full loss mitigation evaluation. If
the borrower requests further assistance, the servicer
must exercise reasonable diligence to complete the
application before the end of the forbearance period.
5. Information not in the borrower’s control. A
loss mitigation application is complete when a
borrower provides all information required from the
borrower notwithstanding that additional
information may be required by a servicer that is not
in the control of a borrower. For example, if a
servicer requires a consumer report for a loss
mitigation evaluation, a loss mitigation application is
considered complete if a borrower has submitted all

Appendix A

A-20
information required from the borrower without
regard to whether a servicer has obtained a
consumer report that a servicer has requested from a
consumer reporting agency.
*

*

*

*

*

Dated: April 2, 2021.
/s/David Uejio
___________________________________
David Uejio,
Acting Director, Bureau of Consumer Financial
Protection.

150

